              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report

Department of Energy Quality
Assurance: Design Control for the
Waste Treatment and Immobilization
Plant at the Hanford Site




DOE/IG-0894                      September 2013
                                    Department of Energy
                                      Washington, DC 20585
                                         September 30, 2013


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Department of Energy Quality
                          Assurance: Design Control for the Waste Treatment and Immobilization
                          Plant at the Hanford Site"


INTRODUCTION AND OBJECTIVE

The Department of Energy is constructing the $12.2 billion Waste Treatment and Immobilization
Plant (WTP) to vitrify approximately 56 million gallons of radioactive and chemically hazardous
waste stored at the Hanford Site. To ensure the vitrification process is safe for workers, the public
and the environment, the Department required the contractor for the WTP, Bechtel National Inc.
(Bechtel), to develop and follow a quality assurance program based on the American Society of
Mechanical Engineer's Quality Assurance Requirements for Nuclear Facility Applications (NQA-
1) Standard.

Proper design control information for an NQA-1 compliant facility includes the original design,
design changes and approved design deviations. Design control must be robust to preserve
alignment between WTP construction and the "Authorization Basis," the Department's process for
ensuring the safe operations of the facility once construction is completed. The Authorization
Basis is the aggregate of all safety related elements of the project, including hazard assessments
and procedures to mitigate identified safety hazards. A well-developed and properly functioning
quality assurance process is critical to ensuring that workers and the public are adequately
protected from nuclear and other hazards when facility operations begin.

The Office of Inspector General received an allegation that Bechtel was missing design control
documentation for the WTP and as such, could not demonstrate that equipment was appropriately
manufactured. In response, we initiated an audit to determine whether design changes were
approved and documented.

RESULTS OF AUDIT

We substantiated the allegation. Our review revealed significant shortcomings in the Department's
process for managing the design and fabrication changes of waste processing equipment procured
for the WTP. Specifically, the Department had not ensured that Bechtel:

   •   Subjected design changes requested by suppliers to the required review and approval by
       Bechtel's Environmental & Nuclear Safety Group (Nuclear Safety), the
       organization responsible for ensuring that design changes do not impact facility safety.
       Early in our review, in September 2012, we brought several instances in which design
                                                  2

       changes requested by suppliers had not received required safety reviews to the attention of
       the Department and Bechtel. Bechtel confirmed the issue and performed an "extent of
       condition" review of certain design changes to determine the scope of the problem. In its
       review of a sample of 235 of 4,028 supplier design documents spanning a 3-year period,
       Bechtel discovered that more than a third of the changes made to supplier design
       documents had not received the required Nuclear Safety review and approval, and, that the
       problems were systemic.

   •   Properly verified that deviations from design requirements that could affect nuclear safety
       were implemented. Bechtel could not demonstrate that it had verified suppliers' actions to
       address deviations from design. For example, we identified that Bechtel approved action to
       repair a Low-Activity Waste melter lid that did not meet design specifications. Bechtel
       was unable to provide evidence that: (1) the supplier had made the necessary repairs to the
       lid; and (2) it had reexamined the repair to ensure that it met requirements. Neither Bechtel
       nor the Department could confirm that the design changes were actually completed and met
       safety related design requirements. In this regard, the absence of affirmation that the
       changes were completed as required carried with it potentially serious implications. In
       short, quality reviewers were unable to determine, with certainty, whether the Low-Activity
       Waste melter lid would successfully perform its safety function to confine harmful by-
       products (nitrogen oxide gases) produced during the waste vitrification process.

                                      Department Oversight

The Department's oversight of Bechtel's quality assurance program lacked focus. In our view, the
depth and breadth of the Department's oversight was not sufficient to identify weaknesses in the
implementation or adequacy of Bechtel's procedures. For example, we found that the Department's
review activity was not sufficiently detailed to identify that Bechtel was not always following its
procedures for requiring the review of design changes by Nuclear Safety. Additionally, although
the Department reviews and approves Bechtel's quality policies, it did not review and approve
implementation procedures. Further, the Department's oversight activities failed to identify the
fact that Bechtel's procedure governing design changes did not meet NQA-1 requirements for
quality assurance. Finally, we found that responsible Federal officials were not aware of Bechtel's
inadequate support for accepting equipment with design changes that impacted safety.

                                    Bechtel Quality Assurance

For its part, Bechtel had also not effectively implemented its own quality assurance procedures.
The exclusion of Nuclear Safety from the design change process can be traced to poor
implementation of existing procedures. According to Bechtel officials, procedures governing
Nuclear Safety review provided "opportunities for interpretation" that led to
"incorrect assumptions" by its engineers. These assumptions led Bechtel's engineering group to
incorrectly conclude that design changes would not affect the Authorization Basis and, as such,
that it was appropriate to bypass Nuclear Safety.

Additionally, Bechtel did not have quality control procedures or processes to ensure that deviations
from design or specifications were documented to support product fabrication and delivery.
Furthermore, Bechtel did not require suppliers to submit reports detailing actions taken to address
needed deviations, documents that would have provided additional confidence that needed design
changes and/or repairs were properly completed.
                                                   3

                                       Design Vulnerabilities

Collectively, these problems led to the creation of major design vulnerabilities. We found that
Bechtel did not always comply with internal Bechtel procedures and failed to adequately and
consistently document supplier initiated design changes. Proper design control is essential to
ensure that critical equipment is properly fabricated to specifications and will perform its safety
function. The lack of a robust design control process makes it difficult to ascertain whether all
necessary safety-related design activities are adequate and that workers, members of the public,
and the environment are adequately protected. Without improvements to design control,
confidence that procured equipment meets requirements for the safe operation of the WTP will
erode.

Other major Department projects have experienced similar quality control concerns. For example,
quality control issues resulted in a schedule delay of approximately 5 months for the Sodium
Bearing Waste Treatment Project in Idaho. Due to the inadequate closure of nonconformance
reports for this project, which is also known as the Integrated Waste Treatment Unit Project, the
Department had to cut and replace questionable welds and processing pipelines from the facility.
The Department's March 2012 report, Integrated Waste Treatment Unit Project, Lessons Learned
determined that documentation from the vendors as well as receipt inspections and field
inspections were incomplete, missing or lost. The report concluded, among other things, that
"Because of quality issues, verification proved to be time consuming and costly."

Our current findings parallel quality assurance problems observed during two other audits of WTP
construction activities. In our report, The Department of Energy's $12.2 Billion Waste Treatment
and Immobilization Plant—Quality Assurance Issues—Black Cell Vessels, (DOE/IG-0863, April
2012), we reported the Department had procured and installed vessels in WTP that did not always
meet quality and/or contract requirements. These vessels, known as black cells, are enclosed
rooms where inspection, maintenance, repair or replacement of equipment or components is not
practicable because there is no engineered access. In our report, Quality Assurance Standards for
the Integrated Control Network at the Hanford Site's Waste Treatment Plant, (DOE/IG-0764, May
2007), we identified that the Integrated Control Network, affecting the immobilization of high-
level radioactive waste, was procured commercially and did not meet quality assurance standards
for nuclear facilities. The network provided the central communication of the Plant's pumps,
valves, and instruments, and interfaces for operators to control plant activities. Although
management reported that it had resolved the specific issues discussed in these reports, our most
recent work demonstrates that additional attention to quality assurance is necessary. As such, we
made several recommendations designed to help strengthen design control at the WTP.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with the report's recommendations and indicated, in some cases, that it had
already taken actions to address specific weaknesses identified in our report. In other instances,
management detailed planned steps it will take to address the remaining concerns. We consider
management's comments and planned corrective actions to be fully responsive to our findings and
recommendations. Management's comments are included in Appendix 3.

Attachment
                                            4

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Senior Advisor for Environmental Management
    Chief Health, Safety and Security Officer
    Chief of Staff
REPORT ON DEPARTMENT OF ENERGY QUALITY ASSURANCE:
DESIGN CONTROL FOR THE WASTE TREATMENT AND
IMMOBILIZATION PLANT AT THE HANFORD SITE


TABLE OF
CONTENTS

Design Control for the Waste Treatment and Immobilization Plant

Background ............................................................................................................................... 1

Details of Finding ..................................................................................................................... 2

Recommendations ..................................................................................................................... 6

Auditor Comments .................................................................................................................... 7


Appendices

1. Objective, Scope, and Methodology ................................................................................... 8

2. Prior Reports ......................................................................................................................10

3. Management Comments ...................................................................................................11
DEPARTMENT OF ENERGY QUALITY ASSURANCE: DESIGN
CONTROL FOR THE WASTE TREATMENT AND IMMOBILIZATION
PLANT AT THE HANFORD SITE
Background

The Department of Energy's (Department) Waste Treatment and Immobilization Plant (WTP) is
a $12.2 billion construction project managed by Bechtel National, Inc. (Bechtel). The WTP
mission is to vitrify approximately 56 million gallons of radioactive and chemically hazardous
waste stored at the Hanford Site. The vitrification process begins by separating the radioactive
liquid waste into two categories at a Pretreatment Facility. The separated waste is pumped in
batches to its respective vitrification facility, High-Level Waste Facility or Low-Activity Waste
Facility. Samples of the batch are then analyzed to determine the appropriate formulation of the
glass mixture. Using this data, the glass formers (sand, silica, etc.) and liquid radioactive waste
are pumped into the melters to be vitrified into large stainless steel containers for permanent
disposal.

To ensure the vitrification process is safe to workers, the public and the environment, the
Department required Bechtel to develop and follow a robust quality assurance program based on
the American Society of Mechanical Engineer's Quality Assurance Requirements for Nuclear
Facility Applications (NQA-1) Standard. Bechtel's quality assurance program defines policies
and procedure requirements to ensure alignment between the constructed design and the
Authorization Basis for safe operations. The Authorization Basis is the aggregate of all
elements, including hazard assessments and safety procedures, designed to mitigate identified
safety hazards. The Department relies on adherence to the Authorization Basis to ensure safety
when the facility begins operations. To maintain alignment with the Authorization Basis,
Bechtel's design control procedures require that design changes receive the same level of review
as the original design and that changes to design requirements are approved and verified. All
suppliers providing safety related equipment are also required to comply with NQA-1, as well.

Because the WTP is a design-build construction project, Bechtel is designing key parts to the
facility, systems and processing equipment as it builds the facilities. Bechtel develops
specifications and conceptual drawings for the systems and equipment, and then orders the items
from suppliers with detailed specifications and other parameters established in the drawings.
Based on this, the suppliers develop the final design documents for Bechtel's review. If Bechtel
finds the design document acceptable, the document is stamped with an acceptance status that
gives the supplier authority to move forward with fabrication of the equipment.

Generally, the supplier is expected to build to Bechtel's approved design documents or
specifications. However, during the fabrication and construction phase, it sometimes becomes
necessary to make changes to account for unforeseen issues. If deviations occur during
fabrication, the supplier is required to create a "nonconformance report" that documents the
issue. The supplier is also required to inform Bechtel of the deviation and submit a Supplier
Deviation Disposition Request detailing proposed design changes for Bechtel's approval. Once
approval is granted and the repair is completed, the supplier is required to perform a
reexamination of the equipment to ensure it continues to serve its safety function. This
reexamination is documented on the nonconformance report and is supported by records such as



Page 1                                                                          Details of Finding
test results and calibration records. The quality record package provides physical evidence that
quality objectives were met and that the equipment will perform its safety function. Once
Bechtel receives these records, its quality assurance program requires it to verify and document
the supplier implementation of the approved disposition. These design change documents,
including accepted deviations and nonconformances, reflect the actual physical configuration of
the equipment. Design, deviations, fabrication, inspection and verification activities performed
by suppliers and quality assurance personnel should be included in a quality record package and
submitted to Bechtel.

Design Control

The Department had not ensured that the design changes for the WTP were appropriately
approved and adequately documented. Specifically, Bechtel approved design changes to
equipment without obtaining the required safety review to determine the impact of changes on
the safety of the facility. Additionally, Bechtel did not properly verify that deviations from
designs made by suppliers conformed to design requirements. Therefore, neither Bechtel nor the
Department could substantiate that the design changes and/or repairs made in response to
required deviations to equipment were properly completed.

                                    Nuclear Safety Reviews

Bechtel approved design changes requested by suppliers without obtaining the required review
from its Environmental & Nuclear Safety Group (Nuclear Safety). Bechtel's procedures required
that changes to design receive the same rigor of review as the original design. That is, design
documents that could affect the Authorization Basis and were originally reviewed by Nuclear
Safety, required the same group's review for any changes.

As part of our review, we sampled Supplier Deviation Disposition Requests, and identified 15
instances in which it appeared that supplier deviations were approved without the required
review of Bechtel's Nuclear Safety. In September 2012, we brought these instances to the
attention of the Department and Bechtel. Bechtel's Engineering group reviewed the 15 Supplier
Deviation Disposition Requests and agreed that 9 required a Nuclear Safety review. These
requests had been submitted by suppliers requesting to deviate from a design specification for
pressure vessels that were designed to confine dangerous processing fluids, gasses and vapors
during plant operations. Because of the issues we identified, Bechtel launched a review of
supplier design documents submitted in the last 3 years. In a population of 4,028 supplier design
documents, 1,425 (approximately 35 percent) had not received the required Nuclear Safety
review. Based on our referral and the subsequent review, Bechtel determined that there was a
systemic problem and a breakdown in controls over the review of design changes. In response,
Bechtel took compensatory steps by suspending all approvals of supplier generated design
changes and suspending all shipments of quality level parts from suppliers to the WTP
construction site for 12 days to allow for corrective actions.




Page 2                                                                        Details of Finding
                                 Verification of Design Changes

Bechtel did not properly verify that deviations from designs made by suppliers were effectively
implemented. Specifically, Bechtel could not demonstrate that it had always verified that
suppliers had made and tested repairs to equipment that may affect nuclear safety. For example,
Bechtel had not developed a methodology for its Supplier Quality Representatives located at
supplier facilities requiring them to verify repairs to design deviations made by the supplier. We
identified a Supplier Deviation Disposition Request to repair the Low-Activity Waste melter lid
that had become distorted during fabrication. Bechtel's disposition of the deviation required the
supplier to excavate two welds and reapply the filler material utilizing a specific procedure in an
effort to straighten out the deformed lid. Quality was critical because the Low-Activity Waste
melter lid's safety function was to confine harmful byproducts of nitrogen oxide gases produced
during the vitrification process. However, Bechtel could not demonstrate that the Low-Activity
Waste melter lid was repaired and was capable of its safety function.

Our review of the quality record package provided no evidence that Bechtel's Supplier Quality
Representative verified and documented the supplier's repair. We could not determine if the
Supplier Quality Representative reviewed the weld record for the repair to ensure that the agreed
upon disposition for the Supplier Deviation Disposition Requests in fact occurred. Specifically,
the Supplier Quality Representative should have reviewed the weld record for the repair to
ensure the correct procedure was used, the individual who performed the weld was qualified and
the filler material was traceable to work performed, or reviewed the reexamination records to
ensure the quality of the welds. Bechtel only required Supplier Quality Representatives to sign
the cover page of the quality record package prior to shipment of equipment to signify the
acceptance that all Supplier Deviation Disposition Requests were verified as closed. Our review
of the quality record package could not specifically determine what actions were taken to resolve
the melter lid problem. In fact, Bechtel procedures do not specify what the Supplier Quality
Representative should do during verification. The lack of any documentation supporting what
was done in verification increased the risk that suppliers had not made or tested repairs to
nonconforming equipment.

Bechtel also did not obtain evidence needed to verify that approved actions to address deviations
from equipment designs were effectively implemented and met safety requirements. We found
Bechtel did not obtain nonconformance reports from its suppliers as a part of the quality record
package. This practice does not align with NQA-1, which considers suppliers' nonconformance
reports, together with records and data supporting the reexamination, as a typical lifetime record.
A properly closed out nonconformance report provides additional evidence that the supplier
implemented Bechtel's approved repair of the deviation. This documentation demonstrates that
the supplier had reexamined the repair and confirmed that the equipment met its safety
requirements together with test data supporting the reexamination.

Bechtel's lack of supplier nonconformance reports adversely impacts its ability to ensure that
suppliers have made agreed-upon repairs and tested the repairs for conformance with design
requirements. For example, Bechtel accepted shipment of equipment used to retrieve waste
samples that had a known approved deviation. Nevertheless, there was not a Supplier Quality
Representative assigned to the supplier to perform verification activities. Bechtel relied on its


Page 3                                                                          Details of Finding
Receipt Inspection process at WTP to verify that the design deviation had been properly
addressed. However, Bechtel did not require the supplier to submit associated nonconformance
reports and Bechtel's Supplier Deviation Disposition Requests submitted by suppliers do not
document the reexamination of the repair. Thus, without the supplier nonconformance report
Bechtel's Receipt Inspection process is not effective in ensuring the deviation was closed. We
also found that, in addition to the lack of nonconformance reports, Bechtel had not obtained the
equipment calibration records and results from the suppliers needed to verify that the repair
continued to meet design requirements. Further, because the completed suppliers'
nonconformance reports were not a required quality record deliverable, neither the Department
nor Bechtel will be able to verify closure of the nonconformance.

                                 Missing Design Documentation

During our review, we substantiated the allegation that Bechtel did not always have supporting
documentation for design changes made to the WTP. Specifically, as previously discussed,
Bechtel had not obtained supporting documentation from equipment suppliers for changes
initiated by the supplier and made to the design of equipment. Bechtel also could not confirm
that repairs to equipment were verified to meet design requirements. Although the Department
had not required Bechtel to provide the design documentation until after the end of construction,
we noted that such practice, in our view, increases the risk that Bechtel will be unable to provide
the required documentation at the end of construction, currently scheduled for 2019. We noted
that Bechtel does not require suppliers to retain quality records, and in one example, we
discovered that a major supplier only retained records for 5 years. Such information regarding
the disposition of design deviations is supporting information for design drawings of the WTP
and is essential for the Department to authorize start-up operations of the facility when
completed. Without complete design documentation, the WTP is likely to face delays and
increased costs during the operational readiness reviews, activities that specifically use design
documents to test compliance with design control requirements prior to approving the start of
facility operation.

Design Control Oversight

The Department's lack of focus on closely overseeing Bechtel's quality assurance program likely
contributed to these problems. In our view, the depth and breadth of the Department's oversight
was not sufficient to identify weaknesses in the implementation or adequacy of Bechtel's
procedures. For example, we found that the Department did not perform adequate reviews to
identify that Bechtel was not following its procedures for requiring the review of design changes
by Nuclear Safety. Additionally, although the Department reviews and approves Bechtel's
quality policies, it did not review and approve implementing procedures. The Department's
oversight activities were not sufficient to identify that Bechtel's procedures governing design
changes did not meet NQA-1 requirements related to verification that design deviations were
properly addressed. Additionally, due to limited Departmental oversight activities, Federal
officials were not aware of Bechtel's inadequate support for accepting equipment with design
changes affecting safety. Recognizing that the WTP is likely to be a 20-year construction project
during which time countless design changes are likely to occur, as well as the fact that Bechtel
may not operate the facility and not be available throughout the life cycle of the WTP, we
concluded that increased Department oversight was warranted.

Page 4                                                                          Details of Finding
Bechtel Implementation of Design Change Controls

Further, Bechtel had also not effectively implemented its quality assurance procedures. The
exclusion of Nuclear Safety from the design change process can be traced to poor
implementation of existing procedures. According to Bechtel officials, procedures governing
Nuclear Safety review provided "opportunities for interpretation" that led to "incorrect
assumptions" by its engineers. These misassumptions led Bechtel's engineering group to
incorrectly conclude that design changes would not affect the Authorization Basis and therefore
that it was appropriate to bypass Nuclear Safety.

Additionally, Bechtel did not have documented processes or controls to ensure that supplier
initiated design changes were effectively implemented by suppliers. Specifically, Bechtel did
not have written procedures that required its own on-site supplier quality representative, the
individual responsible for point-of-delivery quality control, to verify and document that design
changes were properly implemented, tested and verified to meet performance specifications.
Furthermore, Bechtel did not require suppliers to submit nonconformance reports, which would
provide additional confidence to assure necessary repairs were completed.

Design Vulnerabilities

As a result, major design vulnerabilities were created. We found that Bechtel did not always
comply with internal procedures and failed to adequately and consistently document supplier
initiated design changes. The lack of a robust design control process makes it difficult to
maintain the Authorization Basis, an activity critical to ensuring the safety of workers, the public
and the protection of the environment. Without improvements to design control, confidence that
procured equipment meets requirements for the safe operation of the WTP will erode and may
result in delays of the Department's Operations Readiness Review approval for WTP start-up.

Similar issues identified in this report resulted in a schedule delay of approximately 5 months for
the Sodium Bearing Waste Treatment Project in Idaho. For example, due to the inadequate
closure of nonconformance reports for this project, also known as the Integrated Waste
Treatment Unit Project, the Department had to cut and replace questionable welds and
processing pipelines from the facility. The Department's March 2012 report, Integrated Waste
Treatment Unit Project, Lessons Learned, determined that documentation from the vendors as
well as receipt inspections and field inspections were incomplete, missing or lost. The report
concluded, among other things that "Because of quality issues, verification proved to be time
consuming and costly."

To address the problems we discovered, the Department issued a letter on October 10, 2012,
ordering Bechtel to develop a comprehensive corrective action plan to address the systemic
weaknesses in its approval process for design changes made by suppliers. Bechtel informed us
that, corrective actions should be completed no later than September 30, 2013, for design change
documents lacking Nuclear Safety review and December 2014, for verification activities for
supplier initiated design changes.




Page 5                                                                          Details of Finding
RECOMMENDATIONS

Although the Department and Bechtel have taken actions to address some of the deficiencies that
we identified, we believe that additional actions are necessary to ensure design control for the
WTP is maintained and provides the confidence needed for reliance that the design meets the
Authorization Basis for safe operations. Accordingly, we made several recommendations to
strengthen the Department's quality assurance processes for design control. To address the
issues identified in this report, we recommend that the Senior Advisor for Environmental
Management:

   1. Take the appropriate corrective actions necessary to ensure that Bechtel:

         •   Obtain reviews from the appropriate organizations of supplier requests for design
             deviations that may affect safety;

         •   Requires suppliers to provide documentation to support that equipment repairs have
             been implemented and tested to confirm they meet safety requirements;

         •   Develops and implements procedures to verify suppliers implementation and testing
             of equipment design deviations; and

         •   Reviews its supplier requirements for document retention to ensure that the original
             design along with all design changes and approved design deviations can be
             provided to the Department as required.

   2. Restructure Federal surveillance, inspection, assessment and audit programs to ensure
      that the Department determines the adequacy of Bechtel's procedures for flowdown of
      quality requirements.

   3. Perform oversight activities of the corrective actions that Bechtel has already begun, to
      ensure completion.

MANAGEMENT REACTION

The Office of Environmental Management concurred with the report's findings and
recommendations and provided corrective actions that have been taken or are planned to address
the issues identified in this report. Management stated that due to the significance of safety-
related design change documents not reviewed by Bechtel's Nuclear Safety group, Bechtel took
immediate action during our audit to address the issue and determine the extent of condition. In
addition, management stated that it will direct Bechtel to perform corrective actions to address
the lack of quality records that provides confidence that equipment repairs were verified and
continue to meet safety requirements in addition to strengthening procedures. These corrective
actions will be monitored until closure, at which time the Office of River Protection will perform
effectiveness reviews to verify if the actions taken were effective in addressing the issues
identified in this report. Further, management committed to expanding the quality assurance
process to provide enhanced verification of the flow down and implementation of NQA-1
requirements into Bechtel's procedures.


Page 6                                                                       Recommendations
AUDITOR COMMENTS

The Department's corrective actions, taken and planned, are fully responsive to our
recommendations.

Management's comments are included in Appendix 3.




Page 7                                                                      Auditor Comments
Appendix 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the Department of Energy (Department) is effectively managing changes
made during design and fabrication of waste processing equipment procured for the Waste
Treatment and Immobilization Plant (WTP).

SCOPE

We conducted this audit from May 2012 to July 2013, at the Hanford Site in Richland,
Washington. The scope of the audit was to review Bechtel National, Inc.'s (Bechtel) design
control for equipment relied on for safety for the WTP. Our review focused on the issues
contained in the allegations made to the Office of Inspector General and management of design
changes of equipment provided by subcontractors to Bechtel.

METHODOLOGY

To accomplish the audit objective, we:

   •   Obtained and reviewed Bechtel's Quality Assurance Manual and policies and procedures
       to determine how Bechtel manages design changes proposed by suppliers;

   •   Obtained and reviewed procurement documentation for equipment relied on for safety;

   •   Sampled a universe of safety related equipment installed in the WTP, supplied to us by
       the contractor on a master list. We then separated this list into three major means of
       procurement – where Bechtel contracted both the design and fabrication, where Bechtel
       hired a design agent but the fabrication was performed by another entity hired by Bechtel,
       and where Bechtel hired a design agent who then hired the fabricator. We then selected
       seven major pieces of equipment that represented each procurement approach. We also
       took into consideration Bechtel's fee for installing these major pieces of equipment,
       deeming that fee may drive risk. We tested these procurements to ensure that the
       specifications flowed correctly to the various suppliers. For each procurement, we then
       identified design changes and tested to ensure that those changes flowed through the
       procurement documentation correctly, and that the changes were properly approved by
       the appropriate parties. When we identified errors, we brought them to Bechtel to
       discuss. Based upon the errors we identified, Bechtel then performed its own statistical
       sample to determine extent of condition;

   •   Researched Federal and Department regulations, policies and procedures; and




Page 8                                                    Objective, Scope and Methodology
Appendix 1 (continued)

   •   Interviewed key personnel in the Office of Environmental Management, Office of Health,
       Safety and Security, Office of River Protection and Bechtel.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and determined that it had established performance measures for the
management of the Program. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. Finally,
we did not rely on computer-processed data to accomplish our audit objective.

An exit conference was held with the Federal Project Manager on September 25, 2013.




Page 9                                                      Objective, Scope and Methodology
Appendix 2

                                      PRIOR REPORTS


  •   Audit Report on The Department of Energy's $12.2 Billion Waste Treatment and
      Immobilization Plant-Quality Assurance Issues – Black Cell Vessels (DOE/OIG-0863,
      April 2012). The Office of Inspector General received allegations concerning aspects of
      the quality assurance program at the Department of Energy's (Department) Waste
      Treatment and Immobilization Plant (WTP) project. Our review substantiated the
      allegation. It was determined that the Department had procured and installed vessels into
      WTP that did not always meet quality assurance and/or contract requirements. For the
      vessels that we reviewed, multiple instances were identified in which quality assurance
      records were either missing or were not traceable to the specific area or part of the vessel.
      Weaknesses in quality assurance records associated with black cell and hard-to-reach
      processing vessels occurred because of deficiencies in Bechtel National Inc.'s
      implementation of its quality assurance program and a lack of Department oversight.

  •   Audit Report on The Procurement of Safety Class/Safety-Significant Items at the
      Savannah River Site (DOE/IG-0814, April 2009). The audit found that the Department
      had procured and installed safety-class and safety-significant structures, systems and
      components that did not meet the American Society of Mechanical Engineer's Quality
      Assurance Requirements for Nuclear Facility Applications Standard. These failures
      occurred because Departmental controls were not adequate to prevent and/or detect
      quality assurance problems. Additionally, management did not effectively communicate
      quality assurance concerns between the several Departmental program elements
      operating at the Savannah River Site. The procurement and installation of these
      nonconforming components resulted in cost increases. In general, the internal control
      weaknesses we discovered could have permitted, without detection, the procurement and
      installation of safety critical components that did not meet quality assurance standards.
      In a worst case scenario, undetected, nonconforming components could fail and injure
      workers or the public.

  •   Audit Report on Quality Assurance Standards for the Integrated Control Network at the
      Hanford Site's Waste Treatment Plant (DOE/IG-0764, May 2007). The audit found that
      the WTP control system acquired by the Department did not meet applicable quality
      assurance standards – specifically, those required for "an activity affecting the
      immobilization of radioactive high-level waste." As a result, the system does not meet
      the stringent procedures, plans, specifications or work practices associated with nuclear
      quality standards. Under the circumstances, we concluded that the Department cannot be
      sure that the Plant's current system is suitable for processing nuclear waste.




Page 10                                                                             Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
                                                                    IG Report No. DOE/IG-0894

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
